CERTIFICATE OF COMPLIANCE
HENRIETA PISZTORA, MARY ALICE STURM
AND STEPHEN W. STURM, husband and wife,
GREGORY J. WALSH AND MARIANNE B.
WALSH, husband and wife,
Petitioners,
vs.
CITY OF PITTSBURGH and BETH CRONIN,
Respondents.
As required by Supreme Court Rule 33.1(h), we
certify that the petition for a writ of certiorari
contains 4,256 words, excluding the parts of the
petition that are exempted by Supreme Court Rule
33.1(d).
We declare under penalty of perjury that the
foregoing is true and correct.
s/ Deborah R. Erbstein
DEBORAH R. ERBSTEIN, ESQ.
derbstein@gkgattorneys.com
Counsel of Record
DAVID A. WOLF, ESQ.
davidw@gkgattorneys.com
GOLDBERG KAMIN & GARVIN, LLP
437 Grant Street, Ste. 1806
Pittsburgh, PA 15219
(412) 281-1119
September 11, 2020

